Case l:20-cv-00821-MBH Document 17 Filed 01/07/21 Page 1 of 1

O
3fn tljt Hm'teb states? Court of Jfeteal Claims
No. 20-821C
(Filed: January 7, 2021)
TITUS L. RADCLIFF
Plaintiff
v

JUDGMENT

THE UNITED STATES
Defendant

Pursuant to the court’s Order, filed January 6, 2021, granting defendant’s motion to
dismiss,

o

IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that the case is
dismissed.

Lisa L. Reyes
Clerk of Court
By:
Deputy Clerk

NOTE: As to appeal to the United States Court of Appeals for the Federal Circuit, 60 days from
this date, see RCFC 58.1, re number of copies and listing of all plaintiffs. Filing fee is $505.00.

o

Case l:20-cv-00821-MBH Document 16 Filed 01/06/21 Page 1 of 11

O
3fn tfje SUmteti States; Court of jfe&eral Claims
No. 20-821C
Filed: January 6, 2021
*******************

TITUS L. RADCLIFF,
Plaintiff,
* Pro Se Plaintiff;
Subject-Matter
* Jurisdiction; Motion to Dismiss; 28
* U.S.C. § 1494; 28 U.S.C. § 1495.

v.
UNITED STATES,
Defendant.
* ******************

Titus L. Radcliff, gro se, Daytona Beach, FL.

O

Kelly A. Krystyniak, Trial Attorney, Commercial Litigation Branch, Civil Division,
Department Of Justice, Washington, DC, for defendant. With her were Patricia M.
McCarthy, Assistant Director, Commercial Litigation Branch, Robert E. Kirshman, Jr.,
Director, Commercial Litigation Branch, and Jeffery B. Clark, Acting Attorney General,
Civil Division.
ORDER
HORN. J.
Pro se plaintiff Titus L. Radcliff filed a rambling complaint with numerous unrelated
allegations in the United States Court of Federal Claims. In the complaint, plaintiff bases
his alleged claim for jurisdiction in this court on a host of statutes, including: 28 U S C §§
1491(a)(1) and (2) (2018), 28 U.S.C. § 1494 (2018), 28 U.S.C. § 1495 (2018), 28 U.S.C.
§ 1498(a) (2018), 28 U.S.C. § 1501 (2018), 28 U.S.C. § 1503 (2018), 28 U.S.C. § 1505
(2018), and 28 U.S.C. § 1507 (2018). Before explaining his basis for jurisdiction in this
complaint, plaintiff makes a request to transfer a case of his from the United States Court
of Appeals for Veterans Claims to this court to “correct the entire record.”1
1

O

Plaintiffs case in the United States Court of Appeals for Veterans Claims was filed in
May 2020. S_ee Radcliff v. Wilkie. No. 19-1010 (Vet. App. 2020). Previously plaintiff filed
cases in the 7th Judicial Circuit Volusia County, Florida Fifth District Court of Appeals, and
the United States Supreme Court, but all have been dismissed for lack of jurisdiction or
mootness. In Re Titus L. Radcliff. No. 13-5189 (U.S. Aug. 22, 2013) get denied; In Re
Jitus.L. Radcliff, No. 11-9300 (U.S. April 16, 2012) pet, denied: Radcliff v. Gadson. No.
2020-30025-CICI (Fla. 7th Cir. Ct. 2020); Radcliff v. State of Fla.. No. 5D12-3398 (Fla.
1

Case l:20-cv-00821-MBH Document 16 Filed 01/06/21 Page 3 of 11

O
time in service. Although 5 months would not have me vested in railroad
service, because I’m short 13 months, but the 5 months would allow
eligibility under 38 C.F.R. 3.750 Concurrent Compensation & would
additionally show the working of all the current parties possessing my
private property, which should be returned to me paid in full utilizing my
group exemption status to show both parcels.
He further alleges jurisdiction under 28 U.S.C. § 1495 and states:

O

The unjust conviction & jailed under wrong S.S.N. and using as collateral
found in 28 U.S.C. 1491 (a)(2) which would have been enforced if I drafted
from my jail account to pay for copies from the copy machine owned by the
County of Volusia, but material in law books, property by the U.S.
Government found in the jail County of Volusia library which would
constitute entrapment. Jailed 4 times for a total of 64 days. As investigated
by the U.S. Federal District Court in Orlando, FL. Case # 6:20-CV-119OrlGJK 1-24-2020 Found in the 3/30/2020 Abeyance order response, to
case #19-1010. Although the federal district court did not state how many
times I was incarcerated or the reason, but the total was 4 times, with 2
times under my half-brother Lenard A. Jackson’s S.S.N. 594-05-8156. The
other 2 were based on the 2 and pg. 1 where it (quietly) shows the number
16 by the Deputy.Clerk Barbara Horeog 4/16/1998 where this document
shows how the original illegal contract is enforced using days served in jail
with payment made for child support on the side of this notice of delinquency
(alleged). I was arrested on the FI. East Coast Railroad Co. Property at
Trademark Metal Recycling 402 3rd Street Holly Hill, FL 32117 on a short
(private) road leading up to this address. I was put in handcuffs and put in
a police car for not having my scrap metal covered with a tarp. This was
Holly Hill Police Dept, in Holly Hill, FL.
Plaintiff also claims jurisdiction under 28 U.S.C. § 1505 and 28 U.S.C. § 1507. He
claims that “this is cognizable because I Titus L. Radcliff and Shawndrea R. Radcliff are
a group unannotated after 1946” and “to hear any suit in which my home was taken &
given back to V.A..”
Finally, plaintiff requests

O

the court to sanction the railroad to give me the necessary time for my 20
year retirement, backpay of my paycheck, compute the amount of backpay
for denied promotion as Engine House Foreman or General Mechanical
Foreman, assist in retrieving my home and property 528/530 Bellevue
Avenue, Daytona Beach, Florida, promote fairness for veterans with
allowing me to be a heard advocate, assist in bringing to justice those
involved in this modern barbaric treatment, to prosecute those who seek to
retire when in trouble as was done done to me, of how they took my $12,000

3

Case l:20-cv-00821-MBH Document 16 Filed 01/06/21 Page 5 of 11

o
simultaneously, but rather permits a plaintiff to choose among multiple venues to bring its
complaint." (emphasis in original).
DISCUSSION

O

O

The court recognizes that plaintiff is proceeding pro se. When determining whether
a complaint filed by a pro se plaintiff is sufficient to invoke review by a court, a pro se
plaintiff is entitled to a more liberal construction of the pro se plaintiff’s pleadings. See
Haines v. Kerner. 404 U.S. 519, 520-21 (requiring that allegations contained in a pro se
complaint be held to “less stringent standards than formal pleadings drafted by lawyers”),
reh’g denied, 405 U.S. 948 (1972); see also Erickson v. Pardus. 551 U.S. 89, 94 (2007);
Hughes v. Rowe, 449 U.S. 5, 9-10 (1980); Estelle v. Gamble. 429 U.S. 97, 106 (1976)’
IgJblq denied, 429 U.S. 1066 (1977); Matthews v. United States. 750 F.3d 1320, 1322
(Fed. Cir. 2014); Jackson v. United States. 143 Fed. Cl. 242, 245 (2019), appeal
docketed; Diamond v. United States. 115 Fed. Cl. 516, 524 (2014), affd, 603 F. App’x
947 (Fed. Cir.), cert, denied, 135 S. Ct. 1909 (2015). However, “there is no ‘duty [on the
part] of the trial court... to create a claim which [plaintiff] has not spelled out in his [or
her] pleading ...Lengen v. United States. 100 Fed. Cl. 317, 328 (2011) (alterations in
original) (quoting Scogin v. United States. 33 Fed. Cl. 285, 293 (1995) (quoting Clark v.
Nat'I Travelers Life Ins. Co.. 518 F.2d 1167, 1169 (6th Cir. 1975))); see also Bussie v
United States, 96 Fed. Cl. 89, 94, affd, 443 F. App'x 542 (Fed. Cir. 2011); Minehan v.
United States. 75 Fed. Cl. 249, 253 (2007). “While a pro se plaintiff is held to a less
stringent standard than that of a plaintiff represented by an attorney, the pro se plaintiff,
nevertheless, bears the burden of establishing the Court’s jurisdiction by a preponderance
of the evidence.” Riles v. United States. 93 Fed. Cl. 163, 165 (2010) (citing Hughes v.
Rowe, 449 U.S. at 9; and Taylor v. United States. 303 F.3d 1357, 1359 (Fed. Cir.), reh’g
apd reh’.q en banc denied (Fed. Cir. 2002)); see ajso Kellev v. Secretary. U.S. Dep't of
Labor, 812 F.2d 1378, 1380 (Fed. Cir. 1987) (“[A] court may not similarly take a liberal
view of [] jurisdictional requirements] and set a different rule for pro se litigants only.”);
Schallmo v. United States. 147 Fed. Cl. 361, 363 (2020); Hale v. United States. 143 Fed!
Cl. 180, 184 (2019) (“[E]ven pro se plaintiffs must persuade the court that jurisdictional
requirements have been met.” (citing Bernard v. United States. 59 Fed. Cl. 497,499, affd.
98 F. App’x 860 (Fed. Cir. 2004))); Golden v. United States. 129 Fed. Cl. 630, 637 (2016);
Shelkofskv v. United States', 119 Fed. Cl. 133,;139 (2014) (“[W]hile the court may excuse
ambiguities in a pro se plaintiffs complaint, the court ‘does not excuse [a complaint’s]
failures.’” (quoting Henke v. United States. 60 F.3d 795, 799 (Fed. Cir. 1995))): Harris v
United States, 113 Fed. Cl. 290, 292 (2013) (“Although plaintiffs pleadings are held to a
less stringent standard, such leniency ‘with respect to mere formalities does not relieve
the burden to meet jurisdictional requirements.’” (guoting Minehan v. United States 75
Fed. Cl. at 253)).
“Subject-matter jurisdiction may be challenged at any time by the parties or by the
court sua sponte.” Folden v. United States. 379 F.3d 1344, 1354 (Fed. Cir. 2004)
(Fanning, Phillips & Molnar v. West. 160 F.3d 717, 720 (Fed. Cir. 1998)). reh’g and reh’g
en banc denied (Fed. Cir. 2004), cert denied, 545 U.S. 1127 (2005); see also St. Bernard
Parish Gov’t v. United States. 916 F.3d 987, 992-93 (Fed. Cir. 2019) ("[T]he court must

5

Case l:20-cv-00821-MBH Document 16 Filed 01/06/21 Page 7 of 11

O
Clapp v. United States, 127 Ct. Cl. 505, 117 F. Supp. 576, 580 (1954))....
Third, the Court of Federal Claims has jurisdiction over those claims where
money has not been paid but the plaintiff asserts that he is nevertheless
entitled to a payment from the treasury.” Eastoort S.S.. 372 F.2d at 1007.
Claims in this third category, where no payment has been made to the
government, either directly or in effect, require that the “particular provision
of law relied upon grants the claimant, expressly or by implication, a right to
be paid a certain sum." jdj see also [United States v. ITestan. 424 U.S.
[392,] 401-02 [(1976)] (“Where the United States is the defendant and the
plaintiff is not suing for money improperly exacted or retained, the basis of
the federal claim-whether it be the Constitution, a statute, or a regulationdoes not create a cause of action for money damages unless, as the Court
of Claims has stated, that basis ‘in itself. . . can fairly be interpreted as
mandating compensation by the Federal Government for the damage
sustained.'” (quoting Eastport S.S.. 372 F.2d at 1009)). This category is
commonly referred to as claims brought under a “money-mandating”
statute.
Ont. Power Generation, Inc, v. United States. 369 F.3d 1298, 1301 (Fed. Cir. 2004); see
also Samish Indian Nation v. United States. 419 F.3d 1355, 1364 (Fed. Cir. 2005); Twp.
of Saddle Brook v. United States. 104 Fed Cl 101 1Qfi

O

n

To prove that a statute or regulation is money-mandating, a plaintiff must
demonstrate that an independent source of substantive law relied upon “‘can fairly be
interpreted as mandating compensation by the Federal Government.’” United States v.
Navajo Nation. 556 U.S. at 290 (quoting United States v. Testan. 424 U.S. at 400); see
also United States v. White Mountain Apache Tribe. 537 U.S. at 472; United States v.
Mitchell, 463 U.S. at 217; Blueport Co.. LLC v. United States. 533 F.3d 1374, 1383 (Fed.
Cir. 2008), cert, denied, 555 U.S. 1153 (2009). The source of law granting monetary relief
must be distinct from the Tucker Act itself. See United States v. Navaio Nation. 556 U.S.
at 290 (The Tucker Act does not create “substantive rights; [it is simply a] jurisdictional
provision^ that operate[s] to waive sovereign immunity for claims premised on other
sources of law (e.g., statutes or contracts).”); see also Me. Community Health Potions v
United States, 140 S. Ct. 1308, 1327-28 (2020).: “‘If the statute is not money-mandating,
the Court of Federal Claims lacks jurisdiction, and the dismissal should be for lack of
subject matter jurisdiction.”' Jan’s Helicopter Serv.. Inc, v. Fed. Aviation Admin.. 525 F.3d
1299, 1308 (Fed. Cir. 2008) (quoting Greenlee Cntv.. Ariz. v. United States. 487 F.3d at
876); see a]so N.Y. & Presbyterian Hosp. v. United States. 881 F.3d at 881: Fisher v
United States, 402 F.3d 1167, 1173 (Fed. Cir. 2005) (noting that the absence of a money­
mandating source is “fatal to the court’s jurisdiction under the Tucker Act”); Downey v.
United States, 147 Fed. Cl. 171,175 (2020) (“And so, to pursue a substantive right against
the United States under the Tucker Act, a plaintiff must identify and plead a money­
mandating constitutional provision, statute, or regulation.” (citing Cabral v. United States.
317 F. App’x 979, 981 (Fed. Cir. 2008))); Jackson v. United States. 143 Fed. Cl. at 245
(“If the claim is not based on a ‘money-mandating’ source of law, then it lies beyond the

7

Case l:20-cv-00821-MBH Document 16 Filed 01/06/21 Page 9 of 11

O
from a prior payment made to the government, or (3) based on federal constitutional,
statutory, or regulatory law mandating compensation by the federal government for
damages sustained. See United States v. Navaio Nation. 556 U.S. 289-90. None of
plaintiffs alleged claims, including denial of unemployment and retirement, unjust
conviction for stealing from the railway, as well as delinquent child support fall under the
jurisdiction of the court. Nor does plaintiff explain how these claims would properly be
claims under the Tucker Act. As noted by defendant, “Mr. Radcliff does not invoke any
money-mandating statute, nor does he appear to seek any financial recovery from the
United States.”

C

Plaintiff also claims this court has jurisdiction pursuant to 28 U.S.C. § 1494. Under
Section 1494, this court has “jurisdiction to determine the amount, if any, due to or from
the United States by reason of any unsettled account of any officer or agent of, or
contractor with, the United States,” provided (1) claimant applies to the proper
department for settlement, (2) three years have elapsed since plaintiffs application, and
(3) claimant has not previously brought a suit on the claim in the United States. See id.
The United States Court of Federal Claims lacks jurisdiction if plaintiff “fails to allege
sufficient facts to establish jurisdiction, pursuant to 28 U.S.C. § 1494.” Striolin v. United
States, 100 Fed. Cl. 492,498 (2011) (citing RCFC 12(b)(1)); see also Roberson v. United
States, 115 Fed. Cl. 234, 241-42 (2014). Plaintiff cannot prevail on the basis of 28 U.S.C.
§ 1494 because plaintiff has not alleged that he is “officer or agent of, or contractor with,
the United States.”
To the extent plaintiff is trying to collect damages for an alleged unjust conviction
and false imprisonment under 28 U.S.C. § 1495, he does not present any evidence to
support his claim. In order to have a valid claim for unjust conviction and false
imprisonment under 28 U.S.C. § 1495, plaintiff must “prove that his conviction has been
reversed or set aside upon grounds of actual innocence, that he has been found not guilty
during a new trial, or that he has been pardoned on the grounds of actual innocence, and
that he did not commit the acts for which he has been charged,” typically through a "courtissued certificate or pardon.” Taylor v. United States. 130 Fed. Cl. 570, 572 (2016) (citing
Brown v. United States, 42 Fed. Cl. 139, 141-42 (1998) and Vincin v. United States. 199
Ct. Cl. 762, 766,468 F.2d 930, 933 (1972)). No certificate of innocence or proof of pardon
was attached to plaintiffs complaint. Further, plaintiff faces an additional challenge in this
court to recover if his convictions arose from state crimes, rather than federal. Section
1495 only permits plaintiffs to bring claims for damages in crimes committed “against the
United States.” See 28 U.S.C. § 1495.

O

Plaintiff further requests relief under 28 U.S.C. § 1498(a) for the nonpayment of
patent royalties. In order to bring a claim under Section 1498(a), however, a plaintiff must
show that the patent in question is being “used or manufactured for the United States
without license of the owner thereof or lawful right to use or manufacture the same.” id.
The statute 28 U.S.C. § 1498 “does not grant the Court of Federal Claims jurisdiction over
a claim for alleged infringement of an unissued patent.” Dell v. United States. 2020 WL
4876247, at *1, *2 (citing Martin v. United States. 99 Fed. Cl. 627, 632 (2011)). Plaintiff
does not provide any details about an actual patent registration and merely alleges that

9

Case l:20-cv-00821-MBH Document 16 Filed 01/06/21 Page 11 of 11

O
Finally, as noted above, plaintiff requests an existing case of his case be
transferred from the United States Court of Appeals for Veterans Claims to this court or
that the court exercise concurrent jurisdiction. Although under 28 U.S.C. § 1631 (2018) a
federal court can transfer a case to another federal court when “there is a want of
jurisdiction” in the original court, this court cannot compel the transfer of a case from
another federal court, particularly a case that appears to be ongoing. Further, there is no
authority which would permit this court to exercise jurisdiction over the Court of Appeals
for Veterans Claims case.

CONCLUSION
For the reasons discussed above, because this court does not have jurisdiction to
hear any of the claims raised by plaintiff, defendant’s motion to dismiss for lack of subject
matter jurisdiction is GRANTED. Plaintiffs complaint is DISMISSED. The Clerk of the
Court shall enter JUDGMENT consistent with this Order.
IT IS SO ORDERED.
s/Marian Blank Horn
MARIAN BLANK HORN
Judge

O

O
11

V .

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

TITUS L. RADCLIFF,
Petitioner,
v.

Case No: 6:98-cv-488-Orl-22DCI

SECRETARY, DEPARTMENT OF
CORRECTIONS, and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.
ORDER
This cause is before the Court on Petitioner's Notice of Education Benefits Denial.
(Doc. 19). This case was dismissed without prejudice on June 1, 1998. (Doc. 11).
Petitioner's document is largely unintelligible, but he notes that he has been denied
educational benefits. (Doc. 19 at 1-2). Petitioner does not appear to seek reopening of this
habeas action, nor is he attempting to challenge a state court conviction, sentence or some
condition of his confinement. Accordingly, it is ORDERED that Petitioner's notice shall
be STRICKEN from the docket and returned to him byTfufcierk of Court along with a
^\

copy of this Order.
The Clerk of Court is further directed to SEND Petitioner the standard § 2254
habeas form, a civil rights complaint form, and an affidavit of indigency form. If
Petitioner is attempting to file a new habeas or civil rights action, he may complete one
or both standard forms and submit them with an affidavit of indigency or the full filing

fee. Petitioner should not place the instant case number on the forms as this case is closed.
The Clerk will assign a separate case number in the event Petitioner elects to pursue a
new action.
DONE and ORDERED in Orlando, Florida on January 9, 2020.

ANNE C. CONWAY
United States District Judge

Copies furnished to:
Unrepresented Party
OrlP-3 1/9

2

Case 6:20-cv-OOH9-RBD-GJK Documents Filed 03/12/20 Page 1 of 6 Page ID 36

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
TITUS LEE RADCLIFF,
Plaintiff,
Case No: 6:2 0 -cv -119-Orl-37GJK

V.

MARK S. INCH, ROBERT L. WILKIE,
STATE OF FLORIDA, COUNTY OF
VETERANS
and
VOLUSIA
ADMINISTRATION,
Defendants.
ORDER
This case is before the Court on review of Plaintiff Titus Lee Radcliff's Civil Rights
Complaint (Doc. 1). Plaintiff is a prisoner proceeding pto se. (Id, at 2.) For the reasons
discussed infra, the Complaint is dismissed.
I.

Factuai Background1

Plaintiff asserts Defendants Mark S. Inch, Secretary of the Florida Department of
Corrections; Robert L. Wilkie, Secretary of the Department of Veterans Affairs; the State
of Florida; Volusia County; and the Veterans Administration violated his Fifth and
Fourteenth Amendment rights. (Doc. 1 at 2-3.) According to Plaintiff, he contested the

1 It is difficult to decipher the facts as alleged by Plaintiff and what his claim(s) are.
The factual background is largely taken from the sections of the Complaint labeled
"Statement of Claim" and "Basis for Jurisdiction." See Doc. 1 at 5,7-8.

Dase o:^u-cv-uujLiy-KtJD-ujK Document« Filed 03/12/20 Page 2 of 6 PagelD 37

payment of delinquent child support, which resulted in Shawana Perry ("Perry"), who
was a Florida correctional officer, engaging in illegal activities.2 (Id. at 5.) According to
Plaintiff, Perry physically attacked him and removed mail from his mailbox and turned
it over to her attorney, law enforcement officers, and officers of the court. (Id.) Plaintiff
was ordered to pay child support in the amount of $98,000 from February 19,1992 to
December 19,2005. (Id. at 9.)
At some point, Plaintiff's driving privileges were suspended for approximately
eleven years, he was jailed for sixty-four days, and his retirement was cut. (Id. at 5,7-9.)
Plaintiff notes that he was taken into custody on multiple occasions between 1997 and
2004. (Id. at 5,7.) Seemingly, in 1996, Plaintiff also lost his home that was secured by a
Department of Veterans Affairs' loan without a hearing. (Id. at 10.)
Plaintiff filed a claim with the Office of the Attorney General Bureau of Victim
Compensation for the State of Florida. ("BVC") on February 11,1992. (Doc. Nos. 1 at 5; 11 at 4-5.) On August 19,2016, Plaintiff purchased a vehicle. (Id. at 8.) When he gave the
salesman his driver's license, the salesman showed him a document from the BVC filed
on September 23, 2014. (Id.) Plaintiff s purchase of the vehicle and receipt of disability
benefits was delayed because of Defendant State of.Florida's BVC document. (Id.)
Plaintiff seeks monetary damages from Defendants.3 (Id. at 9-10.)

2 It appears that Perry and Plaintiff had a child together. See Doc. 1 at 5.
3 Subsequent to the filing of the Complaint, Plaintiff filed two Addenda to the
Compla int in which it appears Plaintiff is attempting to name two additional Defendants
- Florida Bast Coast Railway Company and Robert Ledoux, Vice President/General
2

Case 6:20-cv-00119-RBD“GJK Documents Filed 03/12/20 Page 3 of 6 PagelD 38

II.

Legal Standard

Under 28 U.S.C. § 1915A(a), the Courtis obligated to screen such a prisoner civil
rights complaint as soon as practicable. On review, the Court is required to dismiss the
complaint (or any portion thereof) under the following circumstances:

(b)

Grounds for Dismissal.-On review, the court shall identify
cognizable claims or dismiss the complaint, or any portion of the
complaint, if the complaint(1)

is frivolous, malicious, or fails to state a claim upon which
rdief may be granted; or

(2)

seeks monetary relief from a defendant who is immune from
such relief.

28 U.S.C. § 1915A(b); see also 28 U.S.C. § 1915(e)(2)(B)(i) (" [notwithstanding any filing
fee, or any portion thereof, that may have been paid, the court shall dismiss the case at
any time if the court determines that ... the action or appeal ... is frivolous or
malicious,"). Additionally, the Court must liberally construe a plaintiff's pro se
allegations. Haines v. Kerrter, 404 U.S. 519 (1972).4

Counsel for Florida East Coast Railway Company. See Doc. Nos. 3,4. Neither Addendum
is sworn under penalty of perjury. Furthermore, the allegations in the Addenda are non­
sensical with the exception of Plaintiff's allegations that they failed to give him his final
paycheck from November 1996 and said he stole a key from them causing his
incarceration. See Doc. Nos. 3 at 1-2; 4 at 2. The Court will not include the unsworn
allegations in the factual background. However, the Court notes that there is no
indication that either Florida East Coast Railway Company or Robert Ledoux are state
actors so as to be liable under § 1983. Moreover, the four-year statute of limitations bars
a claim that Defendants failed to pay him in 1996.
4 A claim is frivolous if it is without arguable merit either in law or in fact. Bilal v.
Driver, 251 F.3d 1346,1349 (11th Cir. 2001).
3

Case 6:20-cv-00119“RBD-GJK Documents Filed 03/12/20 Page 4 of 6 PagelD 39

IIL

Analysis

Plaintiff fails to state a claim on which relief may be granted for several reasons.
"To establish a claim under 42 U.S.C. § 1983, a plaintiff must prove (1) a violation of a
constitutional right, and (2) that the alleged violation was committed by a person acting
under color of state law." Hollies v. Crosby, 418 F.3d 1256,1258 (11th Cir. 2005). Plaintiff
has not alleged any action taken against him by Defendants Mark S. Inch, Robert L.
Wilkie, Volusia County, or the Veterans Administration.
Moreover, assuming Plaintiff is attempting to assert a claim against Defendants
Robert L. Wilkie and the Veterans Administration for taking his home without a hearing,
the claim is barred by the statute of limitations. Florida's four-year statute of limitations
applies to a claim of deprivation of rights brought pursuant to 42 U.S.C. § 1983. See, e.g.,
Chappell v. Rich, 340 F.3d 1279,1283 (11th Cir. 2003). "Federal law determines when the
statute of limitations begins to run." Joseph v. State Mut. Life Ins. Co. ofAm^ 196 F. App x
760,761 (11th Cir. 2006) (quoting Lovett v. Ray, 327 F.3d 1181,1182 (11th Cir. 2003)). The
limitations period "begins to run 'from the date the facts which would support a cause of
action are apparent or should be apparent to a person with a reasonably prudent regard
for his rights/" Joseph, 196 F. App'x at 761 (quoting Brown v. Georgia Bd. of Pardons &
Paroles, 335 F.3d 1259,1261 (11th Cir. 2003)).
From the face of the Complaint, Plaintiff lost his home in 1996. Consequently, from
the Complaint it appears beyond a doubt that Plaintiff can prove no set of facts to avoid

4

Case 6:20-cv-00119-RBD-GJK Document 8 Filed 03/12/20 Page 5 of 6 PagelD 40

his claim being barred by the statute of limitations. Therefore, Plaintiff's claim raised
more than twenty years after he lost his home is barred by the statute of limitations.
In addition, the Eleventh Amendment generally prohibits "federal courts from
exercising subject matter jurisdiction over private party suits filed against a state or state
officials." Tennant v. Florida, 111 F. Supp. 2d 1326,1330 (S.D. Fla. 2000). TheState of Florida
has not waived its immunity from suit in federal courts. See id. (dismissing civil rights
claim against the State of Florida based on the Eleventh Amendment); see also McBrearty
v. Koji, 348 F. App'x 437,440 (11th Cir. 2009) (applying Eleventh Amendment immunity
to a Florida District Court of Appeal); Zabriskiev. Court Admin., 172 F. App'x 906,908-09
(11th Cir. 2006) (affirming dismissal of plaintiff's claims for monetary damages against
Florida circuit court administrators and employees, finding that defendants were part of
the state court system and therefore an arm of the state entitled to Eleventh Amendment
immunity). Consequently, Plaintiff cannot proceed on a claim against the State of Florida
because this Court lacks subject matter jurisdiction. Consequently, the instant action must
be dismissed for failure to state a claim on which relief may be granted in accordance
with the provisions of 28 U.S.C. §4915(e)(2)(B)(ii).5
IV.

CONCLUSION

Accordingly, it is ORDERED AND ADJUDGED as follows:

5 Section 1915(e)(2)(B)(ii) provides that "[n]otwithstanding any filing fee, or any
portion thereof, that may have been paid, the court shall dismiss the case at any time if
the court determines that the action or appeal fails to state a claim on which relief may be
granted."
5

Case 6.20-CV-00119-RBD-GJK Document s Filed 03/12/20 Page 6 of 6 PagelD 41

1.

This case is DISMISSED for failure to state a claim on which relief may be

granted.
2.

The Clerk of the

Court is directed to enter judgment and close this case.

DONE and ORDERED in Orlando, Florida on March 12,2020.

wtiA

A

£

roy'B.d'altonjr:

United States District Judge

Copies furnished to:
Unrepresented Party

6

\\

Q

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
JOSEPH FRANK BOVA, II,
Appellant,
v.

Case No. 5D19-3199

STATE OF FLORIDA,

Appellee.

Opinion filed February 5, 2021

o

Appeal from the Circuit Court
for Flagler County,
Terence R. Perkins, Judge.
Matthew J. Metz, Public Defender, and
Steven N. Gosney, Assistant Public
Defender, Daytona Beach, for Appellant.
Ashley
Moody,
Attorney
Tallahassee,
and Whitney
Assistant Attorney General,
Beach, for Appellee.

General,
Hartless,
Daytona

SASSO, J.
Appellant, Joseph Frank Bova, II, appeals the judgment and sentence entered
after a jury convicted him of first-degree murder with a firearm. Appellant argues a new
trial is required because the trial court applied an incorrect legal standard when it denied

O

his unequivocal request to represent himself. Because the trial court’s stated reason for

Q

denying Appellant’s request was Appellant's capacity to successfully represent himself,
as opposed to his capacity to make a knowing waiver of his right to counsel, we agree
and reverse.
FACTS
On September 27, 2013, Appellant was charged by indictment with first-degree
murder with a firearm. In September 2019, the case proceeded to trial. Prior to jury
selection, defense counsel informed the court that Appellant wanted to represent himself
and requested a Faretta1 inquiry. Following Appellant’s request, an exchange between
the court and Appellant occurred in which it became clear that Appellant’s request was
primarily based on a disagreement with counsel regarding the direct examination of an
expert witness. Specifically, Appellant was pursuing an insanity defense, and, according

p

to the trial court, wanted to “push” the expert into saying that Appellant was not guilty by
reason of insanity. In the trial court’s view, asking a specific question in that regard would
have been fatal to Appellant’s defense. Accordingly, the trial court stated:
[Hjere’s the reason why I’m not granting your Faretta.... It’s not the nature
of the charge. It’s not a fact that you had a history of mental illness. It’s not
the fact that you still have a mental illness based on all the experts that have
looked at you. You are competent. I get that. The reason I’m not letting you
represent yourself in this case is your disagreement with your attorneys is
basically over one question on one witness.. ..
The following day, and after the jury was empaneled, the trial court provided
additional explanation of its reason for denying Appellant’s request, this time noting
Appellant’s previously diagnosed mental illness. Even so, the trial court again expressed

O
1

Faretta v. California, 422 U.S, 806 (1975).
2

(b)
Q

its concern that Appellant would ask the “wrong” questions and concluded that it would
be fatal to his case to allow him to represent himself.
The trial commenced, and ultimately, the jury found Appellant guilty as charged.
Defense counsel filed a motion for new trial based on Appellant’s unequivocal request to
represent himself, which was denied in an unelaborated order.
STANDARD OF REVIEW
We review the trial court’s decision on a request for self-representation for an
abuse of discretion. Slingerv. State, 219 So. 3d 163, 164 (Fla. 5th DCA2017).
ANALYSIS
In Faretta, the United States Supreme Court held that a criminal defendant has a
constitutional right to represent himself provided that the decision to do so is knowing,

O

intelligent, and voluntary. This right, along with the Supreme Court’s subsequent
qualification of the right as expressed in Indiana v. Edwards, 554 U.S. 164 (2008), is
codified at rule 3.111, which states in relevant part:
Regardless of the defendant's legal skills or the complexity of the case, the
court shall not deny a defendant's unequivocal request to represent himself
or herself, if the court makes a determination of record that the defendant
has made a knowing and intelligent waiver of the right to counsel, and does
not suffer from severe mental illness to the point where the defendant is not
competent to conduct trial proceedings by himself or herself.
Fla. R. Crim. P. 3.111(d)(3).
Importantly, and as the text of rule 3.111 conveys, the likelihood that a defendant
would inadequately represent himself is not a valid reason to deny an unequivocal request
for self-representation. See Hooker v. State, 152 So. 3d 799, 802 (Fla. 4th 2014); see
also Hooks v. State, 286 So. 3d 163,168 (Fla. 2019) (“[Tjhe ability to prepare a competent

P

legal defense and technical legal knowledge (or lack thereof) are not relevant issues in a

3

c
,Q

self-representation inquiry.” (citing McKenzie v. State, 29 So. 3d 272, 282 (Fla. 2010))).
Instead, the test for permitting a defendant to represent himself is not whether the
defendant is competent to represent himself effectively but whether he is competent to
make a knowing and intelligent wavier. Hooker, 152 So. 3d at 802. Indeed, even if a trial
court disagrees with a defendant’s choice, the choice “must be honored out of that respect
for the individual which is the lifeblood of the law.” Faretta, 422 U.S. at 834.
Here, the record demonstrates the trial court failed to apply the appropriate legal
standard as announced in Faretta and required by rule 3.111. First, the trial court’s Faretta
inquiry, focused on the merit of Appellant’s proposed trial strategy, rather than his
competence to make a knowing and intelligent waiver of his right to counsel. Second,
although the trial court found Appellant’s request was unequivocal,2 the trial court

n

explicitly stated that the reason for denying Appellant’s request was its perception that
Appellant’s trial strategy would be fatal to his case. Third, the trial court’s post hoc
clarification of its ruling, after a material stage in the proceedings had occurred, does not
cure this error. And although we recognize the narrow exception recognized in Indiana v.
Edwards, the trial court’s comments do not dissuade this Court of its conclusion that the
trial court applied a standard other than the one articulated in Florida Rule of Criminal
Procedure 3.111.
In sum, Appellant made an unequivocal request to represent himself, which the
trial court denied based on an incorrect application of both Faretta and rule 3.111(d)(3).
Consequently, we determine the trial court abused its discretion in denying Appellant’s

O

2 We determine the trial court did not err in determining Appellant’s request was
unequivocal and reject the State’s argument in this regard.
4

(p)
Q

request and reverse and remand for a new trial. See Tennis v. State, 997 So. 2d 375, 379
(Fla. 2008) (noting that the denial of the right of self-representation is not amenable to
harmless error analysis (citing Goldsmith v. State, 937 So. 2d 1253, 1256-57 (Fla. 2d
DCA 2006))).
REVERSED and REMANDED.

EVANDER, C.J., and NARDELLA, J., concur.

n

n
v

5

/7

fN~THE CIRCUIT COURT, SEVENTH
JUDICIAL CIRCUIT, IN AND FOR
VOLUSIA COUNTY, FLORIDA
CASE NO.: 2020 30025 CICI
DIVISION: 32

TITUS L. RADCLIFF,
Plaintiff,
vs.

JAVON WALDEN,
Defendant.

ORDER GRANTING MOTION TO SUBSTITUTE PARTY DEFENDANT
This cause having come on to be heard on March 4, 2021, on Defendant s Motion for
Substitution of Party Defendant, and the Court being fully advised, it is hereby:
ORDERED AND ADJUDGED as follows:
1.

Defendant’s Motion is granted and Javon Walden is hereby substituted as Defendant

in place of Charles Gadson.
2.

P

The Clerk of Court is hereby instructed to amend the style of this action as set forth

above.
DONE AND ORDERED in Chambers at Daytona Beach, Volusia County, Florida this 05 day of
March, 2021.
:.VrV.?0?1 '? :iT DM
< y;H: I
/
/

/

'Po.:/:,

"'MMt..

e-Signed 3/5/2021 2:33 PM 2020 30025 CICI

MARY C. JOL LEY
CIRCUIT JUDGE
Copies furnished via U.S. Mail to:
Titus L Radcliff
931 Vernon St
Daytona Beach FL 32114

Copies furnished via eService to:
Walter J. Snell. Esquire

P
03/05/2021 02:33:25 PM Clerk of the Circuit Court, Volusia County, Florida

